HHS/OIG - Audit, "Review of Hospital Observation Beds," (A-07-01-02631)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hospital Observation Beds," (A-07-01-02631)
May 24, 2002
Complete
Text of Report is available in PDF format (495 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether outpatient observation
services billed by St. Johns Regional Health Center (Hospital) met Medicare
reimbursement requirements.  Based on the results of our sample, we questioned
$197,773 of billed Hospital observation bed services that did not meet Medicare
reimbursement criteria.  In our opinion, the majority of questioned charges,
except for miscoded charges, developed from misinterpretations of the Medicare
reimbursement requirements.  We recommended that the Hospital:
(1) reimburse Medicare the overpayment amount for inappropriate observation
billings of $197,773 for Fiscal Year1999;  (2) develop a corrective action
plan (CAP) to correct the problems; and (3) review further observation claims
to determine the effectiveness of the CAP.